HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing
Facilities Under the Administrative Responsibility of Noridian Mutual Insurance
Company,"(A-05-03-00062)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of Noridian Mutual Insurance Company," (A-05-03-00062)
June 19, 2003
Complete
Text of Report is available in PDF format (393 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare
Skilled Nursing Facility (SNF) payments contained in our database of payments
made under the administrative responsibility of Noridian Mutual Insurance Company
(Noridian).  Our review of the database estimated that $2.4 million of
ineligible SNF payments were made under the administrative responsibility of
Noridian during calendar years 1997 through 2001.  The overpayments occurred
because of the absence of an automated cross-check, within the Centers for
Medicare and Medicaid Services (CMS) Common Working File and the Fiscal Intermediary’s
claims processing systems, verifying that a three consecutive day inpatient
hospital stay occurred prior to SNF admission.  Noridian agreed with our
findings.  However, per CMS instructions, Noridian will not initiate recovery
action until further guidance is received from CMS.